                            U. S. DEPARTMENT OF EDUCATION
                                      OFFICE OF INSPECTOR GENERAL
                                              61 Forsyth Street, Room 18T71
                                                  Atlanta, Georgia 30303




                                                      July 27, 2004

Mike Davis, President
Gwinnett College of Business
4230 Highway 29, Suite 11
Lilburn, Georgia 30047


Dear Mr. Davis:

This letter advises you of the results of our review of Gwinnett College of Business’
administration of the U.S. Department of Education (Department) programs authorized under
Title IV of the Higher Education Act of 1965, as amended (Audit Control Number A04-E0005).
 We reviewed the College’s procedures and controls over the Title IV programs for school years
2001-2002 and 2002-2003. Our objectives were to determine whether the College complied
with Title IV requirements for

•   Student eligibility (including verification procedures),
•   Loan disbursement procedures,
•   Return of Title IV funds (refunds),
•   Cash management, and
•   Default management plans.

To meet the above objectives, we selected a random sample of 60 students who received student
loans during the audit period. We reviewed these student files to determine whether the students
were eligible for financial aid, verification procedures were followed, refunds were calculated
properly and returned to lenders within the applicable timeframe, and loans and grants were
disbursed properly. To review cash management of Title IV funds, we verified that Direct Loan
funds drawn down from the Department were credited to students’ accounts within three
business days. We also reviewed the College’s default management procedures. Our review
was performed in accordance with generally accepted government auditing standards appropriate
to the scope of the review described above.

During the course of our review, nothing came to our attention which would lead us to believe
that the College did not administer the Title IV loan programs in accordance with applicable
laws and regulations or that program expenditures were not allowable or supported.
Consequently, we are terminating our review.

Our review was made for the limited purpose described above and would not necessarily
disclose all material weaknesses in the College’s procedures and controls. Accordingly, the
contents of this letter should not be construed as acceptance or approval of the College’s
practices and procedures. The termination of this review does not preclude further reviews of

        Our mission is to promote the efficient and effective use of taxpayer dollars in support of American education.
Mike Davis                                                                                  2

this or similar areas by the OIG in the future, nor is our review to be construed as a substitute for
any other reviews required by law, license, or accreditation. Also, the termination of this review
does not preclude the Department of Education from taking further action concerning any aspect
of Gwinnett College of Business.

We wish to express appreciation for the cooperation and assistance extended by your staff
during the review. Should you have any questions regarding this review, please contact me at
404-562-6477 or Assistant Regional Inspector General Mary Allen at 404-562-6465. No
response to this letter is required.

                                              Sincerely,

                                              J. Wayne Bynum

                                              J. Wayne Bynum
                                              Regional Inspector General
                                              Region IV


cc: Theresa S. Shaw, Chief Financial Officer, Federal Student Aid
    Sherry Quade, Audit Liaison Official, Federal Student Aid
    Charles Miller, Post Audit Group, Office of the Chief Financial Officer
